Case l:17-cv-00766-RBW Document 74 Filed 07/08/19 Page lot 17

4
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

LARRY WELENC,
Plaintiff,
v.

Civil Action No. 17-0766 (RBW)

DEPARTMENT OF JUSTICE, et al.,
Defendants.

MEMORANDUM OPINION
The plaintiff brings this action under the Freedom of Information Act (“FOIA”), see 5
U.S.C. § 552 (2018), against the United States Department of Justice (“DOJ”) to obtain records
purportedly maintained by the Federal Bureau of Investigation (“FBI”). This matter is before the
Court on the Defendants’ Motion for Summary Judgment. For the reasons discussed below, the
Court grants the motion.
I. BACKGROUND
On November 5, 2013, the plaintiff submitted a FOIA request to FBI’s Las Vegas Field
Office. Response to Motion for Summary Judgment (ECF No. 81, “Pl.’s Opp’n”), Exhibit
(“Ex.”) A. He sought “all documents in [his] file concerning Nancy Shuster and Special Agent
Brescia,” as well as “the second page of [a] letter to Special Agent Brecia.” Memorandum of
Points and Authorities in Support of Defendants’ Motion for Summary Judgment (ECF No. 43-2,
“Defs.’ Mem.”), Declaration of David M. Hardy (ECF No. 43-3, “Hardy Decl.”), Ex. A at 1-2.
The FBI assigned the matter FOIPANo. 1236172. Pl.’s Opp’n, Ex. A. On November 13, 2013,
the FBI denied the “request for documents from Agent Brescia and Nancy Shuster in regards to

1

Case l:17-cv-00766-RBW Document 74 Filed 07/08/19 Page 2 of 17

missing pages of a letter” because its “Central Records System is not arranged in a manner that
allows for the retrieval of... specific documents/letters.” Hardy Decl., Ex. A at 5.
The plaintiff chose not to “contest” the FBI’s response to FOIPA No. 1236172, and by a
fax submitted to the FBI’s Record/Information Dissemination Section on November 22, 2013,
the plaintiff submitted a new request for:
all documents originating from the FBI Field Office Las Vegas on
myself with specific reference to Special Agent Richard J[J Brescia,
Nancy L[.] Schuster, Legal Unit, and Special Agent Nina Lynn Bill
(Roseberry)
Id., Ex. A at 1; see Pl.’s Opp’n, Ex. A. By letter dated November 26,2013, the FBI notified the
plaintiff that, “[i]n response to [his] November 22, 2013 letter, [the] FBI opened a new FOIPA
request and assigned it FOIPA Request No. 1239835-000.” Hardy Decl.

6 n.l; see id., Ex. B.

The plaintiff alleges in his complaint, however, that he submitted a FOIA request to the
FBI’s Headquarters on March 26, 2013 “requesting all files with the FBI Las Vegas on Nancy
Shuster (Schuster), the head of the Legal Unit of the FBI Las Vegasf,] Nevada from 1996 to
1998[.]” Petition for Judicial Review of Denial of FOIA Appeal 2015-00121 (ECF No. 1,
“Compl.”) at 3. According to the plaintiff, this March 26, 2013 submission was the matter
assigned FOIPA Request No. 1239835-000. Id:, see id., Ex. C. Nevertheless, the parties have
not disputed that the single FOIA request at issue in this case is the one designated FOIPA
Request No. 1239835-000. See Hardy Decl., Ex. B; Compl., Ex. C.
FBI staff conducted a search of the Central Records System, see Hardy Decl. ^ 24-25,
using variations of the plaintiff’s name as search terms, see id. f 24. The search yielded 279
pages of responsive records, id. If 11, found in a main file, 197-LV-29808, “stemming from a
1998 civil complaint filed by [the plaintiff] against the FBI in response to its handing of [an

2

Case l:17-cv-00766-RBW Document 74 Filed 07/08/19 Page 3 of 17

earlier FOIA] request,” id. f 27, in the United States District Court for the District of Nevada, see
Welenc v. U.S. Dep’t ofJustice, No. 98-cv-0059 (D. Nev. filed Jan. 13, 1998).
On September 16,2014, the FBI released 186 pages of records in full, released 42 pages
in part, and withheld 11 pages in full, after having redacted certain information under FOIA
Exemptions 5 and 6. See Hardy Decl. ff 11, 28; Compl. at 3; see id., Ex. C. The remaining 40
pages of records were withheld in full because they were duplicates. Hardy Decl. f 28. The FBI
further informed the plaintiff that it had consulted with unidentified government agencies with
respect to some of the responsive records. Id., Ex. F at 1.
The plaintiff appealed the FBI’s response to DOJ’s Office of Information Policy (“OIP”),
which assigned the matter a tracking number, AP-2015-00121. Id. f 12; see id., Ex. G. On May
12, 2015, the OIP affirmed the FBI’s initial determination. Id. f 13; see Compl., Ex. A. In
addition, the OIP advised the plaintiff that the FBI had referred records to other government
agencies, specifically the DOJ’s Civil Division and Executive Office for United States Attorneys
(“EOUSA”), for processing and direct response to the plaintiff. Compl., Ex. A at 2. The OIP
deemed the referrals proper, instructed the plaintiff to consult these agencies directly for further
information, and advised the plaintiff of his right to appeal any future determination made by
these agencies. Id., Ex. A at 2.
After the plaintiff filed this civil action in April 2017, FBI staff reviewed the agency’s
initial response to the plaintiffs request and “issued an updated release” on September 26, 2018.
Hardy Decl. f 15. Of the 279 pages it initially located, the FBI “released 228 pages with
minimal information withheld pursuant to FOIA Exemptions [5 and 6].” Id.; see generally id.,
Ex. I (“Vaughn Index”).

3

Case l:17-cv-00766-RBW Document 74 Filed 07/08/19 Page 4 of 17

II. DISCUSSION
A. Summary Judgment Standard
The Court may grant summary judgment to a government agency as the moving party if
the agency shows that there is no genuine dispute as to any material fact and if it is entitled to
judgment as a matter of law. Fed. R. Civ. P. 56(a). “Unlike the review of other agency action
that must be upheld if supported by substantial evidence and not arbitrary or capricious, the
FOIA expressly places the burden ‘on the agency to sustain its action’ and directs the district
courts to ‘determine the matter de novo.”’ U.S. Dep’t ofJustice v. Reporters Comm, for
Freedom ofthe Press, 489 U.S. 749, 755 (1989) (quoting 5 U.S.C. § 552(a)(4)(B)).
The Court may base its ruling on information in an agency’s supporting declaration if the
declaration is “relatively detailed and nonconclusory[.]” Goland v. CIA, 607 F.2d 339, 352
(D.C. Cir. 1978) (internal quotation marks and footnote omitted). Further, the supporting
declaration must “describe the documents and the justifications for nondisclosure with
reasonably specific detail, demonstrate that the information withheld logically falls within the
claimed exemption, and [is] not controverted by either contrary evidence in the record [or] by
evidence of agency bad faith.” Military Audit Project v. Casey, 656 F.2d 724, 738 (D.C. Cir.
1981) (footnote omitted).
B. The FBI’s Search for Responsive Records
An agency “fulfills its obligations under FOIA if it can demonstrate beyond material
doubt that its search was reasonably calculated to uncover all relevant documents.” Ancient Coin
Collectors Guild v. U.S. Dep’t of State, 641 F.3d 504, 514 (D.C. Cir. 2011) (citations and
internal quotation marks omitted). The agency may submit affidavits or declarations to explain
the method and scope of its search, see Perry v. Block, 684 F.2d 124,126 (D.C. Cir. 1982), and

4

Case l:17-cv-00766-RBW Document 74 Filed 07/08/19 Page 5 of 17

such affidavits or declarations are “accorded a presumption of good faith, which cannot be
rebutted by purely speculative claims about the existence and discoverability of other
documents.” SafeCard Servs., Inc. v. SEC, 926 F.2d 1197,1200 (D.C. Cir. 1991) (citation and
internal quotation marks omitted). Here, the declarant asserts that the FBI’s search of the Central
Records System (“CRS”) using variations of the plaintiffs name as search terms was a
reasonable search. See Hardy Deck

23-26.

The CRS contains “applicant, investigative, intelligence, personnel, administrative, and
general files compiled and maintained by the FBI in the course of fulfilling its integrated
missions and functions as a law enforcement, counterterrorism, and intelligence agencyf.]”
Id. If 16. Its files “are organized according to designated subject categories,” such as
investigations the FBI conducts. Id.

17. “[G]eneral indices to the CRS are the index or ‘key’

to locating records within ... [the] CRS.” Id. f 18. These indices are arranged in alphabetical
order and fall within two categories: (1) a “main” entry carrying the name of the individual who
or organization or other subject matter which is the designated subject of the file, or (2) a
“reference” or cross-reference entry mentioning an individual who is within a main file indexed
to a different individual or subject matter. Id. 118. “FBI employees may index information in
the CRS by individual (persons), by organization (organizational entities, places, and things), and
by event (e.g., terrorist attack or bank robbery).” Id. 1f 19. And “[individual names may be
recorded with applicable identifying information such as date of birth, race, sex, locality, Social
Security Number, address, and/or date of an event.” Id.\2\. While the FBI’s systems have
been upgraded over the years, see id. || 20-22, the index search methodology still applies, see id.

II23.

5

Case l:17-cv-00766-RBW Document 74 Filed 07/08/19 Page 6 of 17

For two reasons, the FBI’s declarant explains, the CRS is the “only system of records
where information pertaining to [the plaintiff’s] request would likely be found.” Id. ^ 26. First,
the CRS “is where the FBI indexes information about individuals ... for future retrieval.” Id.
“Second, given [the plaintiff’s] request for information on himself with reference to specific
individuals, such information would reasonably be expected to be located in the CRS.” Id.
Accordingly, FBI staff “conducted a CRS index search for responsive main file records
on subject, Larry Michael Welenc,... using three-way and two-way phonetic breakdowns of
[three] variations of [the plaintiffs] name[.]” Id. 24. In addition, staff used information
provided by the plaintiff in his FOIA request, “such as specific references to certain individuals,
to identify responsive records.” Id. This search yielded one main file, 197-LV-29808. Id.
24-25.
The premise of plaintiffs challenge to the adequacy of the FBI’s search is that its
summary judgment motion pertains to the incorrect FOIA request. See Pl.’s Opp’n at 3-5.
Although an earlier FOIA request by the plaintiff did seek records about Nancy Shuster, Richard
Brescia and Nina Lynn Roseberry, id. at 2, the plaintiff insists that FOIPA Request No. 1239835,
“[t]he FOIA Request which is the subject matter of this complaint[,] is a requestffor] all
documents on the fpllaintiff in reference to Nancy Shuster of the FBI Las Vegas Legal Unit,
NOT all documents on Nancy Shuster.” Id. (emphasis in original). But the parties agree that
FOIPA No. 1239835 is the sole request at issue in this case, see Compl. at 3; Hardy Deck | 7,
and this is the request to which the FBI responded, see Hardy Deck f 11; see id., Exhs. F, I. i

1 If there is any confusion as to the applicable FOIA request, the plaintiff is at fault. His complaint
mentions four FOIA requests by number and the plaintiff attaches an excerpt of David M. Hardy’s April
30, 2009 declaration in support of the defendants’ motion to dismiss a prior civil action filed by the
plaintiff in this district, Welenc v. Dep’t ofJustice, No. 1:08-cv-2249 (D.D.C. filed Dec. 31,2008).
Neither the prior civil action nor these four FOIA requests are relevant here.
6

Case l:17-cv-00766-RBW Document 74 Filed 07/08/19 Page 7 of 17

The request sought information about the plaintiff himself, and the plaintiff admits that “[t]he
overwhelming majority” of the documents the FBI released “were in fact concerning” him.
Compl. at 3.
With the understanding that FOIPA Request No. 1239835 is the applicable request, it is
apparent that the FBI’s search was reasonably calculated to locate records responsive to that
request. See generally Hardy Decl. fl 16-22. The FBI’s declarant describes in detail the FBI’s
records system, its content and organization, and the method for retrieving information from it.
See generally id. Based on the request submitted to the FBI, it was reasonable for FBI staff to
look for responsive records in the CRS and to use variations of the plaintiffs name as proper
search terms. The main file the FBI located is responsive to FOIPA Request No. 1239835, as it
pertains to the plaintiff and, specifically, the lawsuit the plaintiff brought against the DOJ. The
Court therefore concludes that FBI conducted a reasonable search for records responsive to
FOIPA Request No. 1239835.
C. Information Withheld Under FOIA Exemptions 5 and 6
1. FOIA Exemption 5
FOIA Exemption 5 protects from disclosure “inter-agency or intra-agency memorandfa]
or letters which would not be available by law to a party other than an agency in litigation with
the agency.” 5 U.S.C. § 552(b)(5). It “incorporates the privileges that the [government may
claim when litigating against a private party, including the governmental attorney-client
and attorney work product privileges,... and the deliberative process privilege.” Abtew v. U.S.
Dep’t ofHomeland Sec., 808 F.3d 895, 898 (D.C. Cir. 2015); see NLRB v. Sears, Roebuck, &
Co., 421 U.S. 132,148-49 (1975). “[T]he parameters of Exemption 5 are determined by
reference to the protections available to litigants in civil discovery; if material is not available in

7

Case l:17-cv-00766-RBW Document 74 Filed 07/08/19 Page 8 of 17

discovery, it may be withheld from FOIA requesters.” Burka v. US. Dep’t of Health & Human
Servs., 87 F.3d 508, 516 (D.C. Cir. 1996) (internal quotation marks omitted).
Protection under Exemption 5 is warranted if the document at issue meets two criteria:
“its source must be a Government agency, and it must fall within the ambit of a privilege against
discovery under judicial standards that would govern litigation against the agency that holds it.”
Dep’t ofInterior v. Klamath Water Users Protective Ass’n, 532 U.S. 1, 8 (2001). It is apparent
that the responsive records discovered in this case meet the first criteria. All of the responsive
records at issue were located in “civil litigation file no. 197-LV-29808,” Hardy Decl. f 35,
“stemming from a 1998 civil complaint filed by [the plaintiff] against the FBI in response to its
handling of his FOIPA request,” id. f 27. With respect to the second criteria, the defendants cite
the attorney-client, attorney work product and deliberative process privileges as grounds for
withholding certain documents or portions of documents found in main file 197-LV-29808.
a. Attorney-Client Privilege
“[W]hen the Government is dealing with its attorneys as would any private party seeking
advice to protect personal interests, and needs the same assurance of confidentiality so it will not
be deterred from full and frank communications with its counselors, [Exemption 5] applies.” In
re Lindsey, 158 F.3d 1263,1269 (D.C. Cir. 1998) (citation and internal quotation marks
omitted). A government agency “can be a ‘client’ and agency lawyers can function as
‘attorneys’ within the relationship contemplated by the privilege.” Coastal States Gas Corp. v.
Dep’t of Energy, 617 F.2d 854, 863 (D.C. Cir. 1980). Exemption 5 may apply if the agency
demonstrates that the information at issue “(1) involves ‘confidential communications between
an attorney and his client’ and (2) relates to ‘a legal matter for which the client has sought
professional advice.’” Judicial Watch, Inc. v. U.S. Postal Serv., 297 F. Supp. 2d 252, 267

8

Case l:17-cv-00766-RBW Document 74 Filed 07/08/19 Page 9 of 17

(D.D.C. 2004) (quoting Mead Data Cent., Inc. v. Dep’t ofthe Air Force, 566 F.2d 242, 252
(D.C. Cir. 1977)).
The FBI’s declarant explains that information in “correspondence between the U.S.
Attorney’s Office and the FBI’s Las Vegas Field Office” was redacted because it “contains
confidential information between the FBI’s Special Agent in Charge (‘SAC’) and the Chief
Division Counsel (‘CDC’) of the Las Vegas Field Office, and the U.S. Attorney’s Office.”
Hardy Decl. f 35. In some circumstances, the declarant states, the U.S. Attorney’s Office is
counsel and the FBI is the client; in others, the CDC is counsel and the SAC is the client. Id. In
both circumstances, the declarant states, release of this information “would reveal confidential
communications, pertinent facts, legal analysis, and comments used to formulate the FBI’s legal
position.” Id. The FBI relies on the attorney-client privilege alone, see, e.g., Vaughn Index
(Bates Nos. 24-25), or in conjunction with the attorney work product privilege, see, e.g., Vaughn
Index (Bates Nos. 50-51,119-20).
b. Attorney Work Product Privilege
“The work-product doctrine shields materials ‘prepared in anticipation of litigation or for
trial by or for another party or by or for that other party’s representative.’” Judicial Watch, Inc.
v. Dep’t ofJustice, 432 F.3d 366, 369 (D.C. Cir. 2005) (quoting Fed. R. Civ. P. 26(b)(3)).
Federal Rule of Civil Procedure 26 protects work product if the materials contain the “mental
impressions, conclusions, opinions or legal theories of a party’s attorney” and were “prepared in
anticipation of litigation.” Fed. R. Civ. P. 26(b)(3)(B); see, e.g., Miller v. U.S. Dep’t of Justice,
562 F. Supp. 2d 82,115 (D.D.C. 2008) (concluding that documents which “reflect such matters
as trial preparation, trial strategy, interpretation, personal evaluations and opinions pertinent to [a
plaintiff’s] criminal case” qualify as attorney work product under FOLA Exemption 5). In order

9

Case l:17-cv-00766-RBW Document 74 Filed 07/08/19 Page 10 of 17

for Exemption 5 to protect information under the privilege, “an attorney must have prepared or
obtained the document because of the threat of litigation, i.e., the lawyer must at least have had a
subjective belief that litigation was a real possibility, and that belief must have been objectively
reasonable.” Bloche v. Dep’t of Defense, 279 F. Supp. 3d 68, 81 (D.D.C. 2017) (citations and
internal quotation marks omitted).
The FBI relies on the attorney work product privilege to shield documents or portions of
documents which “discuss federal rules of civil procedure, personal impressions, comments, and
legal advice” pertaining to the civil lawsuit the plaintiff “lodged against the U.S. Department of
Justice.” Hardy Deck f 36. According to the declarant, these documents “memorialize
conversations between the U.S. Attorney’s Office, the Las Vegas Field Office’s SAC and CDC.”
Id. In addition, the Civil Division withholds in full a two-page “memorandum from the Director
of the Federal Programs Branch of the Civil Division to the FBI Director requesting a litigation
report,” id.; see Vaughn Index (Bates Nos. 114-15), because it “contains information regarding
DOJ policy and strategy pertaining to the delegation of [the plaintiffs civil lawsuit] to the U.S.
Attorney for direct handing,” Hardy Deck 136. The declarant represents that the Civil Division
is shielding “materials prepared by an attorney or others in anticipation of litigation,” id., as their
release “would disclose the attorney’s theory of the case or trial strategy,” id. While the Civil
Division relies on the attorney work product privilege alone, see Vaughn Index (Bates Nos. 11415), the FBI at times relies on the attorney work product privilege in conjunction with the
deliberative process privilege, see Vaughn Index (Bates Nos. 73-81), “to withhold privileged
attorney work product performed in connection with [the plaintiffs] civil litigation,” Hardy
Deck 136.

10

Case l:17-cv-00766-RBW Document 74 Filed 07/08/19 Page 11 of 17

c. Deliberative Process Privilege
“The deliberative process privilege protects from disclosure ‘documents reflecting
advisory opinions, recommendations and deliberations comprising part of a process by which
governmental decisions and policies are formulated.”’ Cleveland v. United States, 128 F. Supp.
3d 284, 298 (D.D.C. 2015) (quoting Dep’t ofInterior v. Klamath, 532 U.S. 1, 8 (2001)). For the
privilege to apply, the agency must demonstrate that the information it withholds is both
“predecisional” and “deliberative.” Nat’lAss’n of Home Builders v. Norton, 309 F.3d 26, 39
(D.C. Cir. 2002). A “predecisional” document is one “‘prepared in order to assist an agency
decision-maker in arriving at his decision,’ rather than to support a decision already made.”
Petroleum Info. Corp. v. Dep’t of Interior, 976 F.2d 1429, 1434 (D.C. Cir. 1992) (quoting
Renegotiation Bd. v. Grumman Aircraft Eng ’g Corp., 421 U.S. 168,184(1975)). For example,
“recommendations, draft documents, proposals, suggestions, and other subjective documents
which reflect the personal opinions of the writer rather than the policy of the agency” Coastal
States Gas v. Dep’t of Energy, 617 F.2d 854, 866 (D.C. Cir. 1980), are predecisional. The issue
for the Court is whether “disclosure of [the] materials would expose an agency’s decisionmaking
process in such a way as to discourage candid discussion within the agency and thereby
undermine the agency’s ability to perform its functions.” Formaldehyde Inst. v. Dep’t of Health
& Human Servs., 889 F.2d 1118, 1122 (D.C. Cir. 1989) (quoting Dudman Commc ’ns Corp.
v. Dep’t ofthe Air Force, 815 F.2d 1565,1568 (D.C. Cir. 1987) (alteration in original)).
The FBI represents that it invokes the deliberative process privilege to prevent disclosure
of “information that discusses legal opinions and proposed actions,” because the relevant
documents “outline and discuss intermediary options which led to final agency decisions” with
respect to the plaintiffs lawsuit. Hardy Deck H 37. The declarant states that the information is

11

Case l:17-cv-00766-RBW Document 74 Filed 07/08/19 Page 12 of 17

both predecisional and deliberative, id,, and is withheld in conjunction with the attorney work
product privilege, see Vaughn Index (Bates Nos. 73-81).
d. The Plaintiffs Opposition
Although the plaintiff objects to the withholding of information under Exemption 5, he
fails to submit or point to any materials in the record to rebut the FBI’s reasons for the
withholdings. The plaintiffs first objection again presumes that the FBI responded to the
incorrect FOIA request. He contends that only “[b]y maintaining that the original FOIA Appeal
concerned only Documents on FBI Agent Nancy Shuster of the Legal Unit,” could the FBI
withhold information under Exemption 5. Pl.’s Opp’n at 3. And he suggests that Nancy
Shuster’s affiliation with the Legal Unit is the only reason the FBI could invoke discoveryrelated privileges to deprive him of the information he wants. However, the FBI shows that it
responded to the same FOIPA request for information about the plaintiff faxed to the FBI’s
Record/Information Dissemination Section on November 22, 2013.
Second, the plaintiff speculates about the content of the records or portions of records
withheld under Exemption 5. He claims that the FBI refuses to release information which
exonerates him from misconduct or criminal conduct of which he had been accused. For
example, the plaintiff claims that the withheld information would show that he did not commit
the crime of trespass in 1998 at the RIO Hotel Casino in Las Vegas, see Pl.’s Opp’n at 6, or show
that he was not investigated for committing extortion in 2004 or 2005, see id. He further
speculates that information withheld from these records provided to him pertain to FOIA
requests he made to the United States Department of State, see id. at 8, and an alleged
investigation stemming from his 1993 application for a position as a translator and German
language interpreter, see id. at 8-10. And the plaintiff asserts that the withheld information

12

Case l:17-cv-00766-RBW Document 74 Filed 07/08/19 Page 13 of 17

pertains to his 1996 visit to the FBI’s Las Vegas Field Office, his encounter with Special Agent
Richard Brescia and other FBI Agents sometime in 1997 or 1998, his detention in 1998, see id. at
11-17, and the FBI’s alleged interference with his attempt to obtain a gaming license in New
Jersey in 1999, see id. at 23-28. He offers no support for these assertions, however, and his
purely speculative assertions as to the contents of the responsive records and information not
provided to him does nothing to rebut the FBI’s representations for the withholdings.
Even if information in the withheld records exonerates the plaintiff as he speculates it
would, the FBI need not disclose it if a FOIA exemption applies. A FOIA action is not a
criminal case, and a FOIA requester has no constitutionally protected right to exculpatory
evidence as would a criminal defendant. See Boyd v. Criminal Div. ofthe U.S. Dep’t ofJustice,
475 F.3d 381, 390 (D.C. Cir. 2007) (affirming the withholding of records under FOIA
Exemption 7(D), notwithstanding the requester’s belief that disclosure was warranted under
Brady v. Maryland, 373 U.S. 83 (1963)); Richardson v. U.S. Dep *t ofJustice, 730 F. Supp. 2d
225,234 (D.D.C. 2010) (rejecting requester’s asserted right to information under FOIA because
it “would have been available to him during the criminal proceedings either as Brady or as
Jencks Act, 18 U.S.C. § 3500 [(2018)], material”).
Because the FBI has adequately demonstrated that the information it did not disclose is
protected under the attorney-client, attorney work product, or deliberative process privileges, or
some combination of these privileges, the Court concludes that it properly has been withheld
under Exemption 5.
2. FOIA Exemption 6
Under FOIA Exemption 6, “personnel and medical files and similar files the disclosure of
which would constitute a clearly unwarranted invasion of personal privacy” are not subject to

13

Case l:17-cv-00766-RBW Document 74 Filed 07/08/19 Page 14 of 17

disclosure. 5 U.S.C. § 552(b)(6). The Court must undertake a two-part inquiry to determine
whether Exemption 6 applies. First, the Court must determine whether the relevant records “are
personnel, medical, or ‘similar’ files covered by Exemption 6.” Multi Ag Media LLC v. Dep’t of
Agric., 515 F.3d 1224,1228 (D.C. Cir. 2008). However, the records need not belong to “a
narrow class of files containing only a discrete kind of personal information.” U.S. Dep’t of State
v. Wash Post Co., 456 U.S. 595, 602 (1982). Rather, Exemption 6 “cover[s] detailed
Government records on an individual which can be identified as applying to that individual.” Id.
(citations omitted). Second, the Court “must... determine whether their disclosure ‘would
constitute a clearly unwarranted invasion of personal privacy.’” Multi Ag Media, 515 F.3d at
1228 (quoting 5 U.S.C. § 552(b)(6)). As to this inquiry, the Court must “balance the privacy
interest that would be compromised by disclosure against any public interest in the requested
information.” Id. (citations omitted). “A substantial privacy interest is anything greater than a
de minimis privacy interest.” Id. at 1229-30 (citation omitted). And the only relevant public
interest in this analysis is “the extent to which disclosure of the information sought would ‘she[d]
light on the agency’s performance of its statutory duties’ or otherwise let citizens know ‘what
their government is up to.

U.S. Dep’t ofDef v. Fed. Labor Relations Auth ,510 U.S. 487, 497

(1994) (quoting U.S. Dep’t ofJustice v. Reporters Comm, for Freedom ofthe Press, 489 U.S.
749, 773 (1989)).
The FBI has withheld from production to the plaintiff the names of and identifying
information about FBI Special Agents and support personnel, Hardy Decl. ^ 40, non-federal
government employees, id. H 42, private security personnel, id., and third party private citizens,
id. 44, under Exemption 6. It represents that the Special Agents and FBI support personnel,
who do not choose the investigation or civil litigation assigned to them, may become targets of

14

Case l:17-cv-00766-RBW Document 74 Filed 07/08/19 Page 15 of 17

“unnecessary, unofficial questioning as to the conduct of this civil litigation, or other
investigations,” if their identities are disclosed, even if these individuals are no longer FBI
employees. Id. f 40. Further, the FBI’s declarant states that “an individual targeted by law
enforcement actions, or involved in litigation with the FBI,” may “carry a grudge,” prompting
him to “seek revenge on FBI [Special Agents] and support personnel as well as other federal
employees who were involved in a particular litigation or investigation.” Id. According to the
FBI, these individuals have “substantial privacy interests,” which are not outweighed by any
public interest in disclosure of their names and identifying information about them. Id. 41.
The FBI adopts a similar rationale for withholding information about other government
employees and private security personnel, as release of their identities “would result in
unsolicited and unnecessary attention,” id. ^ 42, and “could subject them to harassment... as the
result of their association with an FBI file,” id. Likewise, the third parties whose names appear
in the responsive records “are not of investigative interest to the FBI,” id. K 44, and release of
their identities “could subject them to possible harassment, criticism, or negative inferences due
to their association with FBI records,” id. The EOUSA also relies on Exemption 6 to protect an
employee whose “individual privacy interest... outweighfs] the public interest in disclosure” of
his or her identity. Id. U 41.
Courts have concluded that, “[gjenerally, government employees and officials ... have a
privacy interest in protecting their identities because disclosure ‘could subject them to
embarrassment and harassment in the conduct of their official duties and personal affairs.’”
Moore v. Bush, 601 F. Supp. 2d 6,14 (D.D.C. 2009) (quoting Halpern v. FBI, 181 F.3d 279,
296-97 (2d Cir. 1999)). Here, the defendants adequately demonstrate that the individuals whose
identities are protected have cognizable privacy interests. The plaintiff is therefore obligated “to

15

Case l:17-cv-00766-RBW Document 74 Filed 07/08/19 Page 16 of 17

articulate a significant public interest sufficient to outweigh an individual’s privacy interest,”
March v. Dep Y ofHealth & Human Servs., 314 F. Supp. 3d 314, 325 (D.D.C. 2018) (citing Nat 7
Archives & Records Admin, v. Favish, 541 U.S. 157,172 (2004)), ajf’dsub nom. March v. U.S.
Dep’t ofJustice,No. 18-5204,2018 WL 6167381 (D.C. Cir.Nov. 15, 2018), yet this plaintiffs
response to the summary judgment motion nowhere addresses FOIA Exemption 6.
Because Exemption 6 “covers not just files, but bits of personal information, such as
names and addresses,” Prison Legal News v. Samuels, 787 F.3d 1142,1147 (D.C. Cir. 2015),
where their release poses “a palpable threat to privacy,” id. (quoting Judicial Watch, Inc. v.
Food & Drug Admin., 449 F.3d 141,152 (D.C. Cir. 2006)) (citation and internal quotation marks
omitted), the Court concludes that the names of and identifying information about the individuals
in the responsive documents have been properly withheld under Exemption 6.
D. Segregability
“[N]on-exempt portions of a document must be disclosed unless they are inextricably
intertwined with exempt portions.” Wilderness Soc ’y v. U.S. Dep Y ofInterior, 344 F. Supp. 2d
1,18 (D.D.C. 2004) (quoting Mead Data Cent., 566 F.2d at 260); 5 U.S.C. § 552(b). An agency
must provide “a detailed justification and not just conclusory statements to demonstrate that all
reasonably segregable information has been released.” Valfells v. CIA, 717 F. Supp. 2d 110,120
(D.D.C. 2010) (citation omitted).
The plaintiff complains that certain documents were so heavily redacted that only a page
number remained. See Pl.’s Opp’n at 7; see Compl. at 3. However, he does not argue or point to
evidence in the record to rebut the “presumption that [the FBI] complied with the obligation to
disclose reasonably segregable material.” Sussman v. U.S. Marshals Serv., 494 F.3d 1106,1117
(D.C. Cir. 2007) (citation omitted). And based on the Court’s review of the defendants’

16

•

V

Case l:17-cv-00766-RBW Document 74 Filed 07/08/19 Page 17 of 17

supporting declaration and Vaughn Index, the Court concludes that FBI has released all
reasonably segregable material.
III. CONCLUSION
The FBI has established that its search for records responsive to FOIPA Request No.
1239835 was reasonable, that it properly withheld information under FOIA Exemptions 5 and 6,
and that it released all reasonably segregable information. Therefore, the defendants’ motion for
summary judgment will be granted. An Order is issued separately.

/s/

REGGIE B. WALTON
United States District Judge

DATE: July 8,2019

17

Case l:17-cv-00766-RBW Document87 Filed 11/18/19 Page lot3

f\ft ft (

b

(l

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
LARRY WELENC,
Plaintiff,
v.

Civil Action No. 17-0766 (RBW)

DEPARTMENT OF JUSTICE, et a!.,
Defendants.
ORDER
The plaintiff brought this action under the Freedom of Information Act (“FOIA”), see 5
U.S.C. § 552 (2018), against the United States Department of Justice (“DOJ”) to obtain records
purportedly maintained by the Federal Bureau of Investigation (“FBI”). The Court granted the
defendants’ motion for summary judgment, see Welenc v. Dep't ofJustice, No. 17-cv-0766, 2019
WL 2931589 (D.D.C. July 8, 2019), and two days later, the plaintiff filed his Motion to Amend
Memorandum Opinion and Motion for Reconsideration of Memorandum Opinion (ECF No. 76,
“Pl.’s Mot.”). The Court will deny both motions and also the plaintiffs three subsequent
motions.1 Additionally, the Court will grant, nunc pro tunc, the defendant’s motion for an
extension of time to file its opposition to the plaintiffs motion for reconsideration as moot.

1 The Court denied the plaintiffs Motion to Strike Defendant’s Motion for an Extension of Time
to File Opposition, ECF No. 79, by minute order on August 5, 2019, and denied his Amended
Motion to Strike Defendant’s Motion for an Extension of Time to File Opposition, ECF No. 80,
by minute order on August 16, 2018. The plaintiffs Motion for Clarification of Order of ' 8/16/2019 Denying Motion to Strike, ECF No. 81, will now also be denied. Because the Court
grants the defendant’s motion for extension of time, nunc pro tunc, the plaintiffs Motion for
Default Judgment Granting Plaintiffs Motion for Reconsideration, ECF No. 84, which opposes
the extension, is denied. And because the plaintiff states no valid reason for striking the
defendant’s opposition, the Court denies his Motion to Strike Defendant’s Opposition to Motion
for Reconsideration, ECF No. 86.
1

Case l:17-cv-00766-RBW Document 87 Filed 11/18/19 Page 2 of 3

The Court construes the plaintiffs motion as one to alter or amend a judgment under
Federal Rule of Civil Procedure 59(e). See Owen-Williams v. BB &T Inv. Servs., Inc., 797 F.
Supp. 2d 118, 121 (D.D.C. 2011) (“As a general matter, courts treat a motion for reconsideration
as originating under Rule 59(e) if it is filed within 28 days of the entry of the order at issuef.]”
(footnote omitted)). A motion under Rule 59(e) is “disfavored and relief from judgment is
granted only when the moving party establishes extraordinary circumstances.” Niedermeier v.
Office ofMax S. Baucus, 153 F. Supp. 2d 23, 28 (D.D.C. 2001) (citing Anyanwutaku v. Moore,
151 F.3d 1053,1057 (D.C. Cir. 1998)). The Court need not grant a Rule 59(e) motion unless it
finds that there is an intervening change of controlling law, the availability of new evidence, or
the need to correct a clear error or prevent manifest injustice.” Firestone v. Firestone, 76 F.3d
1205,1208 (D.C. Cir. 1996) (internal quotation marks and citation omitted).
The plaintiff contends that the Court misinterpreted statements set forth in his Complaint
and in his opposition to the defendants’ summary judgment motion. See Pl.’s Mot. at 2 - 3.
Moreover, he maintains that the FBI responded to the incorrect FOIA request for the purpose of
justifying the withholding of information under FOIA Exemption 5. See id. at 2-3, 7. The
plaintiff also refers to requests for information he made under the Privacy Act, see id. at 6, and
his request for information from the State of New Jersey pertaining to the death of his father on
November 20,1959, see id. at 8 - 11 ;see generally id., Exh. (unnumbered).
At issue in this case was a single FOIA request to the FBI: FOIPA Request No. 1239835000. The plaintiff neither offers support for the proposition that the FBI responded to the wrong
request nor explains the relevance of his other requests for information. Importantly, the plaintiff
utterly fails to demonstrate extraordinary circumstances warranting relief under Rule 59(e).
Accordingly, it is hereby

2

Case l:17-cv-00766-RBW Document 87 Filed 11/18/19 Page 3 of 3

ORDERED that the Motion to Enlarge Time to File Defendants’ Opposition to Plaintiffs
Motion for Reconsideration [82] is GRANTED nunc pro tunc; and it is further
ORDERED that the plaintiffs Motion for Reconsideration of Memorandum Opinion
[76], Motion for Clarification of Order of 8/16/2019 Denying Motion to Strike [81], Motion for
Default Judgment Granting Plaintiffs Motion for Reconsideration [84] and Motion to Strike
Defendant’s Opposition to Motion for Reconsideration [86] are DENIED.
SO ORDERED.
Isl
REGGIE B. WALTON
United States District Judge

DATE: November 18, 2019

3

Case l:17-cv-00766-RBW Document 90 Filed 01/31/20 Page 1 of 2

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

LARRY WELENC,
Plaintiff,
v.

Civil Action No. 17-0766 (RBW)

DEPARTMENT OF JUSTICE, et al.
Defendants.

ORDER
This matter has come before the Court on the plaintiff’s Motion for Judge Walton to
Recuse Himself from Case. ECF No. 89 (“Pl.’s Mot.”). According to the plaintiff, the
undersigned has shown prejudice by denying the plaintiff’s “Motion for Clarification of
November 18, 2108 [sic],” “Motion for Permission to Amend Motion for Reconsideration,” and
request for leave to file a surreply, ECF No. 88, by minute order on December 23, 2019. Pl.’s
Mot. at 2. Further, the plaintiff pointed to rulings in a separate case, Civil Action No. 07-0453,
particularly the undersigned’s decision to deny a motion filed by the plaintiff even though the
defendant did not oppose the motion, id., to support his claim of bias. Consequently, the plaintiff
has asked the undersigned to “declare himself as prejudiced and remove himself from further
proceedings in this case and all cases involving the [p]laintiff.” Id. at 3.
“Recusal is required when ‘a reasonable and informed observer would question the
judge’s impartiality.’” SEC v. Loving Spirit Found. Inc., 392 F.3d 486, 493 (D.C. Cir. 2004)
(quoting United States v. Microsoft Corp., 253 F.3d 34, 114 (D.C. Cir. 2001) (en banc) (per
curiam)). This is an objective standard, and “a judge must recuse [himself] only if there ‘is a
1

Case l:17-cv-00766-RBW Document 90 Filed 01/31/20 Page 2 of 2

showing of an appearance of bias or prejudice sufficient to permit the average citizen reasonably
to question a judge’s impartiality.’” Karim-Panahi v. U.S. Cong., Senate & House of
Representatives, 105 F. App’x 270, 274 (D.C. Cir. 2004) (per curiam) (citing United States v.
Heldt, 668 F.2d 1238, 1271 (D.C. Cir. 1981)). “[Disqualification based on prejudice is required
only if the alleged prejudice stems from an extrajudicial source,” Heldt, 668 F.2d at 1272, and
the plaintiff has not demonstrated that such circumstances exist. At most, the plaintiffs
“dissatisfaction with a court’s rulings . . . provides a proper ground for appeal —not for recusal.”
Jenkins v. Kerry, 928 F. Supp. 2d 122, 128 (D.D.C. 2013) (citation omitted). Furthermore, the
undersigned notes that the three civil actions the plaintiff has filed in this federal district court
have been terminated.
It is hereby
ORDERED that the plaintiffs Motion for Judge Walton to Recuse Himself from Case
[89] is DENIED. It is
FURTHER ORDERED that the plaintiff shall file no further documents in this closed
case.
SO ORDERED.

/s/
REGGIE B. WALTON
United States District Judge

DATE: January 31, 2020

2

J USCA Case #20-5025

Document #1893937

Filed: 04/09/2021

Page 1 of 2

c
plmiefr

Olourt of J^ppealg

For The District of Columbia Circuit

No. 20-5025

September Term, 2020
1:17-cv-00766-RBW
Filed On: April 9, 2021

Larry Welenc,
Appellant

v.
United States Department of Justice and
Federal Bureau of Investigation,
Appellees

BEFORE:

Tatel, Pillard, and Walker, Circuit Judges
ORDER

Upon consideration of the motion for summary affirmance, the response thereto,
and the supplement to the response; the motions to appoint counsel; the response to
this court’s order entered March 18, 2020; the supplement filed December 16, 2020; the
motion for clarification and a declaration from the district court; the motion for
reconsideration; and the motion to schedule a conference call, it is
ORDERED, on the court’s own motion, that appellant show cause, within 30
days of the date of this order, why this appeal should not be dismissed in part as
untimely, and why the district court’s January 31, 2020 order denying appellant’s motion
to recuse should not be summarily affirmed. Appellant appears to be seeking review of
the district court’s orders, entered on July 9 and November 18, 2019, granting
appellees’ motion for summary judgment and denying appellant’s motion for
reconsideration pursuant to Federal Rule of Civil Procedure 59(e). The notice of appeal
was filed on January 31,2020, which is beyond the 60-day period established by
Federal Rule of Appellate Procedure 4(a)(1)(B) and 4(a)(4)(A). Although the notice of
appeal is timely as to the district court’s denial of appellant’s recusal motion, the parties
have not addressed that ruling in their dispositive motion briefing. Accordingly,
appellant is directed to show cause why the appeal of the summary judgment order and
reconsideration order should not be dismissed as untimely, and why the district court’s
denial of the recusal motion should not be summarily affirmed.

USCA Case #20-5025

Document #1893937

Filed: 04/09/2021

Page 2 of 2

ffinxttb J&tntes QLmxxt of JVppeals
For The District of Columbia Circuit

No. 20-5025

September Term, 2020

The response to the order to show cause may not exceed the length limitations
established by Federal Rule of Appellate Procedure 27(d)(2) (5,200 words if produced
using a computer, 20 pages if handwritten or typewritten). Failure by appellant to
respond to this order will result in dismissal of the appeal for lack of prosecution. See
D.C. Cir. Rule 38. It is
FURTHER ORDERED that consideration of the remaining motions be deferred
pending further order of the court.
The Clerk is directed to send a copy of this order to appellant by certified mail,
return receipt requested, and by first class mail.
Per Curiam

FOR THE COURT:
Mark J. Langer, Clerk
BY:

Page 2

/s/
Manuel J. Castro
Deputy Clerk

USCA Case #20-5025

Filed: 11/06/2020

Doeument #1870143

Page 1 of 1

ffinxizb j^tates Court of J^pprals
For The District of Columbia Circuit

September Term, 2020

No. 20-5025

1:17-CV-00766-RBW
Filed On: November 6,2020[i87oi43]
Larry Welenc,
Appellant
v.
United States Department of Justice and
Federal Bureau of Investigation,
Appellees
ORDER
Upon consideration of appellant’s motion to clarify the court’s November 4, 2020
order extending the deadline to respond to the motion for summary affirmance, which
includes a request for a further extension, it is
ORDERED that appellant’s response to the motion for summary affirmance is now
due December 15, 2020. The court will consider appellant’s pending motion for clarification
and declaration at the same time that it considers the motion for summary affirmance.
FOR THE COURT:
Mark J. Langer, Clerk
BY:

Is/
Catherine J. Lavender
Deputy Clerk

«r

r
U.S. Department of Justice
Federal Bureau of Investigation

In Reply, Please Refer to
File No. 197-LV-29808 '

John Lawrence Bailey FBI Building
700 East Charleston Boulevard
Las Vegas, Nevada 89104
January 15, 1998

Kathryn E. Landreth
701 East Bridger, Suite 800
Las Vegas, Nevada 89101
b<

ATTN: AUSA
Re: Larry Welenc v. U.S. Department of Justice
Dearf

\

SEARCHED.

m

SERIALIZED
INDEXED-

' jl

r s%
t

Sincerely,
Bobby L. Siller
Special Agent in Charge
b€

By:
Chief Division Counsel

■ USCA Case #20-5025

Document #1866337

Filed: 10/14/2020

Page 1 of 5

Larry Welenc
3660 East Bay Drive #1422
Largo FI 33771
Tel: 727-687-9344

UNITED STATES DISTRICT COURT
DISTRICT OF COLUMBIA
WASHINGTON D.C.

LARRY WELENC
Plaintiff and Appellant

Case no.20-5025
Lower Court Case no. 17-0766 (RBW)

vs
Dept, of Justice
Federal Bureau of Investigation
Washington D.C.
Defendant and Appellee

MOTION TO CLARIFY ORDER AS TO
COURT’S INTENT REQUIRING
APPELLANT TO RESPOND TO APELLEE’S
MOTION FOR SUMMARY AFFIRMANCE
MOTION FOR DECLARATION OF THE
LOWER COURT JUDGE TO DECLARE
WHETHER HE WAS INFORMED BY THE
FBI THAT THE WITHELD DOCUEMENTS
WERE A MATTER OF NATIONAL
SECURITY

• USCA Case #20-5025

Document #1866337
2

Filed: 10/14/2020

Page 2 of 5

MOTION FOR CLARIFICAITON OF COURTS INTENT REGARDING
PUBLISHING OF COURT ORDER

Appellant requests to court to clarify it’s intent regarding the publishing of the final
order. Does the court intend both it’s decision and that of the lower court should it be
upheld or the Appellee’s Motion for Summary be Affirmed , to "constitute precedent or
be binding upon any court?"

In Appellant’s appeal of a case involving the death, estate and insurance settlement of
Appellant’s father, NJ State Trooper Hilary Welenc, Apellate Court would not allow their
Decision to be used as a precedent
SUPERIOR COURT OF NEW JERSEY APPELLATE DIVISION
DOCKET NO. A-4348-15T2
NOT FOR PUBLICATION WITHOUT THE APPROVAL OF THE APPELLATE
DIVISION
tlA1L
,v.
This opinion shall not "constitute precedent or be binding upon any court. Although it is
posted on the internet this opinion is binding only on the parties in the case and its use in
other cases is limited. R. 1:36-3.
The lower court Judge in this case did not to Appellant’s knowledge, place a similar
restriction on his Order. Appellant assumes that if he does not pursue his appeal this
court could not restrict the lower court’s Order in the same manner as that of the New
Jersey Superior Court of Appeal.

The Appellant assumes that this Court might do the same considering the precedent the
Lower Court’s Order would set, that it is permissible for the FBI to excise entire pages

■

USCA Case #20-5025

Document #18^6337

Filed: 10/14/2020

Page 3 of 5

except for the page number to thwart any attempts to appeal a FOIA request for denial
of release of document as they did in the lower court case. If the FBI maintained that a
blank document was exempt from release in ftiture cases, the lower court case would be
cited as a precedent by the FBI and would have to be upheld. The best any opposing party
could do would be to claim that a blank document without a page no. which the FBI was
holding in the air and claiming exempt, was upside down, since the FBI could not under
those circumstance prove that it wasn’t.mThe Court’s answer to this question will decide
if the Appellant wants to move further with the case.

According to the FBI’s response to Appellant’s 2008 Motion with the US District Court
to have an alleged photo of the Appellant purged from their files, they refused to do so
because of an ongoing investigation. The security camera from which the photo was
taken indicates a the year 1988 when Appellant was living in Germany, which means
that the ongoing investigation was still going on for 20 years at the time of the case . The
Appellee in this case referred to the photo in the lower court case and the ongoing
investigation , which means that the investigation of which the photo is part of has been
going on for 31 years ! This must be a violation of Appellant’s constitutional grounds for
filing a

suit in the HAAG. Appellant may want to avail himself of this possibility instead

of continuing this case, as it is information he can easily obtain from foreign governments
under the right situation

’

USCA Case #20-5025

Document #18J56337

Filed: 10/14/2020

Page 4 of 5

TO DECLARE WHETHER
WERE A MATTER
SECURITY
To justify this Motion appellant will make and assume the following Supposition are true
for the sake of argument

1.) The lower court Judge Reginald Walton, did not make his decision based on any
prejudice to the Appellant
2.) The lower Court Judge, Reginald Walton , being a former employee of the
Defendant did not make his decision based on any deference to the Appellee/
3.) The lower court Judge Reginald Walton is competent and recognized the
consequences of his Decision
4. ) The lower court Judge Reginald Walton is not corrupt and did not base his
decision on any compensation from the Appellee .
5.) In order to make a rational and correct decision on whether the contents of a blank
piece of paper fell under the FOIA exemption, the lower court Judge Reginald
Walton would have had to seen the contents of the blank piece of paper.
6.) The only justification for the Judge to have granted an ex-parte communication
with the Appellee, would be if the FBI claimed that the contents were a matter of
national security and reveal the real or fabricated contents of the blank document
to the Judge

If the court agrees the above suppositions are true, Appellnat’s Motion for a Declaration
from the lower court is justified

• • USCA Case #20-5025

Document #18^6337

Filed: 10/14/2020

Page 5 of 5

•?

//I
Dated

zs
LARRY WELENC
Appellant pro se

CERTIFICATE OF SERVICE

The undersigned does hereby certify that on this day, the 14th of Ocotber , 2020a copy
of this Response was sent to the Appellant through ECF filing.
Kenneth Adebonojo
Assistant U. S. Attorney
Judiciary Center Building
555 4th Skeet N.W.
Washington, D.C.20fi4

Dated

